<html>
<title> - PROPERTY RIGHTS AND DEVELOPMENT IN SOUTHEAST ASIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





           PROPERTY RIGHTS AND DEVELOPMENT IN SOUTHEAST ASIA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 21, 2015

                               __________

                           Serial No. 114-94

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-991 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
          Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. James Carouso, Acting Deputy Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......    10
The Honorable Jonathan Stivers, Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    18
Ms. Faith Bautista, president and chief executive officer, 
  National Asian American Coalition..............................    37
Mr. Joey Quinto, publisher, California Journal for Filipino 
  Americans......................................................    41
Mr. Zosimo Laurel Contreras (litigant in Philippines property 
  dispute).......................................................    76
Mr. Richard J. Rogers, partner, Global Diligence LLP (attorney 
  representing Cambodian victims before the International 
  Criminal Court)................................................    80

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. James Carouso: Prepared statement............................    13
The Honorable Jonathan Stivers: Prepared statement...............    21
Ms. Faith Bautista: Prepared statement...........................    39
Mr. Joey Quinto: Prepared statement..............................    43
Mr. Zosimo Laurel Contreras: Prepared statement..................    78
Mr. Richard J. Rogers: Prepared statement........................    82

                                APPENDIX

Hearing notice...................................................   106
Hearing minutes..................................................   107
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................   108

 
           PROPERTY RIGHTS AND DEVELOPMENT IN SOUTHEAST ASIA

                              ----------                              


                        FRIDAY, AUGUST 21, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
the Ursa Major Suite, Cal Poly Pomona University, 3801 West 
Temple Avenue, Pomona, California, Hon. Matt Salmon (chairman 
of the subcommittee) presiding.
    Mr. Salmon. This committee will come to order.
    Chairman Royce, I welcome the opportunity to convene this 
subcommittee hearing with you today on Property Rights and 
Development in Southeast Asia.
    I always enjoy coming to California, and the Cal Poly 
Pomona campus is truly a beautiful backdrop.
    Mr. Chairman, you are very lucky to represent such a 
beautiful piece of our country, and I would like to thank our 
distinguished witnesses for their participation in the hearing.
    Today I look forward to hearing about the progress that 
Southeast Asian countries have made in developing rule of law 
and protections for property rights. Given varying structures 
of governance and levels of development among Southeast Asian 
countries, we know that large challenges remain for countries, 
for individuals, and for businesses. I hope to learn more about 
these obstacles as well.
    We are concerned about the abuse of power and gross 
violations of property rights in Cambodia. Private property 
rights were greatly impaired under the Khmer Rouge, though 
Cambodian law does not recognize private, state, and collective 
ownership by private individuals and indigenous communities.
    Despite this, land-grabbing by the government for their 
political cronies and businesses has escalated significantly 
over the years. Up to \1/2\ million Cambodians have been 
reported to be displaced by forced land seizures. Poor and 
vulnerable populations have been identified as most harmed by 
forced evictions and lack of compensation for their land. Due 
to high court costs and lack of resources for many of those 
adversely affected, many disputes never make it to court. Those 
that do, end up facing an ineffective system to seek redress 
for violations and unfair treatment.
    I know that USAID has funded programs to train lawyers and 
judges and support NGOs with legal aid and property rights 
education, and the World Bank and other donors have funded 
similar projects. I welcome additional solutions to the tragic 
condition of property rights in Cambodia.
    The Philippines' 1987 constitution includes many provisions 
which protect private property rights, and efforts have been 
made to protect landowners from squatters and unfair land 
takings. The Philippine Government has attempted the execution 
of land reform programs for many years, with varying degrees of 
success and failure.
    Despite efforts, much of the vulnerable rural population of 
the Philippines remain landless, and the population living in 
informal settlements with no enforceable legal basis to their 
claims continues to grow. Inconsistencies in Philippine land 
and property policies, exacerbated by a weak legal system and 
political or business interference, have stoked competition 
over land ownership claims and privileges. Overlapping or 
fraudulent land titles can fuel conflict, contribute greatly to 
instances of squatting or land grabbing, and hinder greater 
economic development.
    A tradition of government corruption in the Philippines has 
made these issues harder to address. USAID and other 
international organizations and NGOs have worked to improve the 
land rights in the Philippines, such as supporting the 
development of the Residential Free Patent Act of 2010 that 
streamlines titling of residential lands. These efforts advance 
governance and advocacy for the Filipino population and help 
those without a voice.
    Similarly, I look to our distinguished witnesses for 
insight on how we can catalyze more positive momentum in the 
Philippines. Land grabbing and insufficient protection of 
property rights exists elsewhere in Southeast Asia, and I 
welcome discussion about efforts to address issues in other 
countries as well. For instance, in Burma, citizens and 
organizations cannot own any land, since it all belongs to the 
state. Forcible and uncompensated land confiscation is rampant 
in Burma, and its drive for economic growth has stifled 
progress on the issue. I would be interested to hear from the 
State Department and USAID on what work we have done in Burma 
to aid in reversing this injustice.
    Similarly in Indonesia, property rights are inconsistent, 
and the land rights of the vulnerable and the poor are 
insecure. Capacity to interpret laws fairly and unambiguously 
is limited. In Vietnam and Laos, the land, as they say, belongs 
to all, but it is administered poorly and inefficiently. Here, 
Thailand has been a model for Southeast Asian nations, boasting 
a transparent land administration system that has issued title 
deeds to much of the population.
    The United States strives to be a voice of reason and to 
help galvanize necessary reform throughout the region. We will 
seek to promote and protect fundamental rights that are 
inconsistently enforced and poorly upheld in Southeast Asia. 
Furthermore, we will work with our allies to encourage the 
development of transparent, enforceable, and equitable laws 
that will benefit all members of these diverse countries.
    Members present will be permitted to submit written 
statements to be included in the official hearing record. And 
without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions, and extraneous 
materials for the record, subject to the length limitation in 
the rules.
    I now yield to Chairman Royce for his opening statement.
    Mr. Royce. Thank you, Mr. Salmon.
    I think we should start by thanking Cal Poly Pomona for 
opening up this hall to so many people here today. We had an 
opportunity not too long ago to have the director of USAID out 
here in this very hall, and Cal Poly Pomona gave us a forum to 
talk about the challenges about rebuilding after Tacloban, and 
specifically about legislation that this committee, my 
committee had passed that I had authored that allowed aid to go 
immediately, and food to be purchased locally with respect to 
our USAID efforts in the Philippines.
    But today I am particularly appreciative of my colleagues 
here from Congress, and the State Department and USAID being 
here again. Director Shaw I thought did a great job. We had a 
town hall meeting here last time. This time we are doing this 
in the form of a hearing in order to get into an issue that I 
think is very, very important, and that is what can we do to 
help change this phenomenon of land grabbing and the 
dislocation of people that are being pushed off of their land 
by government policy around the world, and specifically some of 
the new programs that USAID is championing in the Philippines 
and elsewhere in order to achieve this goal.
    I did want to mention my wife Marie used to be a professor 
here at Cal Poly Pomona, so I have had the opportunity to be up 
on the campus a number of times for international programs. But 
in this case, we are looking at how we can best promote not 
just the rights of people in parts of the Philippines right now 
where, because of the Marcos legacy, they do not really have a 
tradition of land title. This was one of the things that 
President Aquino was trying to change and is trying to change. 
But locally, as you go into certain parts of the Philippines, 
Marcos' practices of seizing land and transferring that land 
into the hands of people who are well connected locally, has 
created an environment where, you can see by the concern of the 
community here, you can see that people, frankly, are losing 
their property.
    Land title reform is a big part of the solution here, and 
that is what we are going to talk about today, and we are going 
to hear from witnesses.
    We had had some successes, but as we aim, frankly, to 
deepen our engagement in Southeast Asia and transform our aid 
so that it supports sustainable economic growth, we have got to 
consider whether the underlying conditions exist to realize 
that growth. In countries where citizens are denied basic 
protections under the law, including the right to secure 
property and the right to basically have title, those 
conditions don't exist.
    So if I could just speak to Cambodia for a minute, Chairman 
Salmon, over half of land holdings are held informally there, 
without legal title. It would help enormously if we could put 
into effect a change that would give land title to those who 
are farming that land, because as the Cambodian economy has 
developed, many Cambodians have been displaced by the Hun Sen 
government. The government and domestic and foreign businesses 
are responsible for seizing much of this land. The government 
has appropriated lands and homes forcibly, often for 
agricultural use or mining or logging.
    According to testimony that I am going to submit for the 
record here, the Cambodian Government of Hun Sen maintains its 
political and economic power, and I am going to quote Meach 
Sovannara here, his words. He is a U.S. citizen who is being 
held in prison right now in Cambodia for speaking out about 
land reform and other issues like this. I am going to quote 
him:

        ``They maintain economic power through the control and 
        harsh repression of anyone who stands in the way of 
        their economic enrichment and political control, and 
        anyone criticizing their policies and actions.''

    His family is with us today, Jamie Meach, who is with us, 
and her children, their children.
    Chairman, could I ask if they could stand in the front row?
    Mr. Salmon. Absolutely.
    Mr. Royce. Jamie, could you and your family stand? I am 
going to put your husband's statement in the record here today 
with the support of Chairman Salmon.
    Mr. Salmon. Without objection.
    Mr. Royce. Thank you.
    So he has been imprisoned. We are also going to be talking 
with the State Department about doing what you can to get those 
American citizens back who are held overseas because they are 
speaking out specifically about human dignity and freedom and 
this issue of land grabbing.
    According to the Cambodian League for the Promotion of the 
Defense of Human Rights, three-fifths of arable land in 
Cambodia is controlled by foreign agribusiness companies. 
Foreign investment--it can be beneficial--but it has to be 
rules based. It has to be above board. These large plantations 
fail to provide stable employment and adequate income for local 
residents who formally farm that land.
    In some areas of the Philippines, land ownership is 
informal and narrowly disputed among local elites and clans. 
Tens of millions of Filipinos work as lease holders or rent-
paying sharecroppers. Outdated land administration laws and an 
inefficient land administration system have resulted in 
fraudulent, overlapping land titles and widespread land 
grabbing. The perpetrators are politicians and foreign 
investors. Besides insecure land rights, over 12 million 
families in the Philippines do not own the rights to their own 
homes. So there is a desperate need for proper titling, which 
would unlock vast wealth for Filipinos, as noted economist 
Hernando de Soto has testified before our committee.
    President Aquino has made considerable efforts to reform 
and clean up politics in the Philippines, but his few years in 
office cannot undo the years of damage done by President Marcos 
and the legacy President Marcos left, especially in some 
regions in the Philippines.
    Last February I led a bipartisan congressional delegation 
to the Philippines where we were able to observe the 
destruction done by Typhoon Yolanda. Several members of this 
committee were there with me, and I appreciate very much, Brad, 
you and Matt, and all the engagement in the Philippines. I was 
glad to see such a strong U.S. humanitarian effort. In the 
aftermath of natural disasters like this, on top of losing 
their homes, victims can also find themselves without a shred 
of proof to the rights to their property.
    In the Antipolo region, I was personally prevented, at 
gunpoint--and this was on a trip I took prior to last year. It 
was 2 years ago. We took a delegation out there. I was 
prevented, at gunpoint, from accessing the property of a 
constituent by what appeared to be a member of a local security 
force. He had closed off the road. He closed off access of a 
public road to people in that area that owned their property. 
In my meeting with President Aquino I pressed him on the 
importance of protecting property rights. Filipinos as well as 
Cambodians have great economic potential. We should be working 
to unlock that potential.
    President Aquino is working to unlock that potential, but 
USAID needs to help us find a way at the local level to make 
sure that local governments do this as well.
    Today we will hear from victims of land grabbing. Because 
property rights are essential to stability and economic growth, 
we have to do all we can to encourage nations to offer these 
protections to their citizens. This would dramatically improve 
the lives of Filipinos, Cambodians and others in Asia, while 
improving our economic well-being and security.
    So again, I thank you, Mr. Salmon, and I thank our ranking 
member here as well.
    Mr. Salmon. Thank you. [Applause.]
    Before I recognize the ranking member, I do need to talk 
about some of the etiquette issues associated with 
congressional hearings. As Mr. Royce said, he did this before 
in a town hall. A hearing is very, very different. In fact, in 
a hearing, the only people that will be speaking will be the 
distinguished panel members. We have two panels today. The 
other people that will be speaking are Members of Congress up 
here on the dais that will be making opening statements and 
asking questions. There is no audience participation other than 
being here.
    As far as the rules of the road, so to speak, we would ask 
that if you haven't done so already, to put your cell phones on 
silent. Also, this is not a town hall meeting, so we don't 
cheer and we don't boo and we don't have public outcries. It is 
just the nature of congressional hearings. We are not trying to 
offend anybody. That is just the way that they are done.
    I would like to recognize the ranking member.
    Mr. Sherman. Thank you, Mr. Chairman. I want to thank you 
and Chairman Royce, the chair of the full----
    [Applause.]
    Mr. Salmon. Again, we would please ask the audience if they 
would refrain from clapping or cheering. Thank you.
    Mr. Sherman. I want to thank you for having this hearing. I 
think field hearings are an important part of what our 
committee does. I remember Chairman Royce and I did a field 
hearing at the border focused on terrorism issues, and I look 
forward to our committee doing field hearings, as appropriate. 
I think almost every Member of Congress here believes that it 
is best to have such field hearings in Southern California, and 
at least one member here believes that it is best to hold them 
in the 39th Congressional District. But only Marie Royce 
believes that, of the two major campuses in that district, the 
best place to have it is Cal Poly Pomona.
    Mr. Royce. And that is despite--if the gentleman would 
yield?
    Mr. Sherman. I yield.
    Mr. Royce. That is despite the fact that her husband went 
to the other campus.
    Mr. Sherman. Exactly, which simply demonstrates who the 
primary decision-maker is. [Laughter.]
    The focus of today's hearing is on land rights in Cambodia 
and the Philippines. America has an interest in the economic 
and political development of Southeast Asian countries. We 
spend hundreds of millions of dollars every year to promote 
that economic development. It is important for our economy 
because these are not only current but future trading partners. 
It is also important from a national security perspective as we 
work to make sure that not only does Asia have a robust China, 
but that the nations on China's periphery are also robust as 
well.
    Critical to that economic development is the rule of law. 
In fact, if you look around the world, those countries with the 
rule of law are doing well, and those without the rule of law 
are not. And particularly important is real estate law. 
However, millions of people in Cambodia and the Philippines 
must deal with government corruption, outdated laws, inadequate 
record-keeping, and I look forward to hearing from our panel as 
to what the United States can do to improve the situation.
    As to Cambodia, a nation much smaller than the Philippines, 
with only 15 million people, in 2001 Cambodia amended its law 
to allow private ownership of land. They established a 
framework in which individuals could register land and have 
their ownership recognized by the Land Management Ministry.
    Unfortunately, most Cambodian citizens lack either the 
knowledge or the means to go through the formal process of land 
ownership. They are either unable to fill out the necessary 
paperwork or to pay the required taxes and land fees.
    However, since 2001 Cambodian officials have used the land 
law to seize rural lands and provide them to domestic and 
foreign businesses, political figures, and in many cases they 
have done so without the consent of the lands' inhabitants and 
without the consent of those who may turn out in justice to own 
the land.
    As one opposition Cambodian lawmaker explained in a New 
York Times op-ed, ``Farmers only become aware of the 
transactions when the construction companies come in to remove 
them, bulldozers and security guards in tow.''
    As a result, land seizures by the Cambodian Government have 
displaced 770,000 Cambodians, nearly 6 percent of the nation's 
population, since the year 2001. This paints a picture very 
different from most countries in the world. The government has 
leased almost 5 million acres of rural land, which includes 
three-fifths of the nation's arable land, to foreign entities.
    In response to land corruption, the World Bank suspended 
new lending to Cambodia in 2011 and called on the Cambodian 
Government to stop wrongful eviction of civilians, and in 2012 
Cambodian officials announced the suspension of land leasing to 
foreign entities and launched a program in cooperation with 
Cambodia's Ministry of Land Management to measure land plots 
and to distribute titles to villagers.
    Nearly 500,000 such titles have, in fact, been distributed. 
This program will prevent the displacement of Cambodians in the 
future, but it does not solve the problems of Cambodians who 
have already been displaced from their homes. In fact, the U.N. 
Human Rights Council has found the Cambodian National Authority 
for Land Dispute Resolution to be largely ineffective in 
settling land cases.
    I know that one of our witnesses is from USAID. Jonathan, 
we look forward to your announcement on how we can help provide 
the rule of law in real estate in Cambodia.
    As to the Philippines, as Chairman Royce pointed out, we 
had a chance to visit the Philippines and discuss the rule of 
law and economic development with the President of that country 
and so many others. In 1988 the Philippines passed a 
comprehensive agrarian reform plan which distributed land to 
tenant farmers. Though this gives farmers the right to till a 
certain plot of land, it does not grant farmers ownership of 
that land. Over half of the land holdings nationwide are still 
held informally, without official legal title, and 70 percent 
of the farmers do not own the land they till.
    The other major problems with the land claims of the 
Philippines relate to just basic record-keeping. USAID reported 
in 2011 that outdated land administration laws and inefficient 
land administration and adjudication infrastructure and a poor 
land information system have resulted in problems of fraudulent 
overlapping and duplication of land titles and widespread land 
grabbing.
    To make matters worse, the Philippines is a nation that 
often suffers from natural disasters, including typhoons, and 
that can destroy paper documents in government buildings. 
According to a recent Oxfam report, typhoons and other natural 
disasters have destroyed essential land records and has 
provided an opportunity for landowners, or at least those 
purporting to be landowners, to evict tenants from land so it 
can be developed for commercial purposes. Corrupt Filipino 
bureaucrats and landowners have sold huge parcels to foreign 
companies to build an airport, a resort town, and a host of 
other facilities.
    U.S. assistance to the Philippines totaled $190 million in 
2014. In addition to this, we signed a $334 million U.S. 
Millennium Challenge compact with the Philippines in 2010, so 
we have a real interest in economic development in the 
Philippines. Our money and, more importantly, the efforts of a 
generation of Filipinos will go for naught unless the rule of 
law, and particularly the rule of law involving real estate, is 
adhered to.
    I yield back.
    Mr. Salmon. Mr. Rohrabacher, did you have an opening 
statement?
    Mr. Rohrabacher. I will make this short because I know we 
want to get on with the witnesses. But I, first of all, would 
like to thank Mr. Royce and Mr. Salmon for the leadership that 
they have provided on human rights issues in general. You guys 
have--these have been real heroes here, and it has been my 
honor to have worked with both of them. Ed, ever since he got 
to Congress as a freshman--I was already there, by the way--Ed 
has been the champion of broadcasting to people throughout the 
world so that they will know that they are not forgotten in 
their struggle for freedom and not forgotten by the American 
people.
    We supposedly, as Americans, hold freedom and the rights of 
human beings to be our number-one value. This is how we will 
prove that. We will prove it by making sure that people in 
these countries where they are oppressed get the message that 
we are on their side, but also hearings like this where we 
insist that human rights be respected for our country to deal 
with those governments.
    By the way, human rights, so often people think human 
rights are only elections, freedom of speech, freedom of 
religion. But human rights also means when someone owns a piece 
of property or someone has worked his life and the life of 
their family for generations on a piece of land, for that land 
to be taken away, for that property to be taken away is a 
violation, a fundamental violation of human rights, as is 
restricting someone's right to worship God the way they would 
choose.
    So today we are reaffirming in this hearing, especially to 
the people of Cambodia, Vietnam, the Philippines, Burma, and 
other Southeast Asian countries, that we understand that there 
is a challenge there to their freedom and to the well-being of 
their families and to their human rights, and that we are on 
their side, and we want to find ways of how we can make that 
situation better. When governments think that they can take 
land and property away from ordinary people and give it to 
their cronies, basically crony capitalism has replaced 
communism as a chief oppressor.
    Vietnam isn't a communist country anymore. Communism means 
Marxism, where nobody owns anything. They are just a corrupt 
dictatorship where they are taking care of their cronies. The 
same is true in Cambodia, and the same is unfortunately true at 
some level in the Philippines. But we know that the Filipino 
people, because they have a democratic process, are trying to 
work their way through it and make it better.
    Well, that is what America is all about. We come from every 
race, religion, and ethnic background, and it is up to us to 
make sure that we reach out, using that, because I can see 
people from here from all of the countries I just mentioned. It 
is your job to speak for America there to make sure that the 
people of your countries, where you came from, that they know 
that America does stand for these principles, and also we are 
very pleased to have you here as the American fabric. That is 
what makes us a strong country and a force for freedom in the 
world.
    So, thank you, Ed and Matt. I am looking forward to the 
testimony.
    Mr. Salmon. Thank you.
    Ms. Chu?
    Ms. Chu. Thank you, Chairmen Royce and Salmon, and Ranking 
Member Sherman, for inviting me to take part in today's 
important hearing. And thank you for holding this hearing in 
Southern California, right next to my congressional district of 
Pasadena and Monterey Park. This whole area is home to so many 
people who are affected by what we will hear today, and this is 
an important opportunity to connect the work we do in 
Washington, DC, to home.
    I particularly want to thank today's witnesses for sharing 
what will be heart-wrenching personal testimony on land 
ownership rights in Southeast Asia and what we can do to help. 
I have had the good fortune to speak with a few of you in the 
past, and I know that all of us will benefit from hearing your 
stories.
    Land ownership is a cornerstone of a nation's economy and a 
necessity to rising out of poverty for many. It can encourage 
investment and build ties to communities. But too frequently in 
the developing world, weak property rights are abused to help 
the elite few or reward cronies at the expense of the most 
vulnerable. And women and those lacking education, those who 
need help the most, are often the most susceptible.
    The two countries that we are focusing on today, Cambodia 
and the Philippines, are particularly egregious offenders. We 
are going to hear just a few stories of blatant land grabs by 
the powerful, and often done through force. But I know that 
there are many more who have had similar experiences.
    In the Philippines in particular, the abuse of weak land 
titles that we have seen in the wake of Typhoon Haiyan in 2013 
has been shocking as redevelopment becomes an excuse to push 
individuals out of their homes.
    The governments make the apparent argument that they are 
working for the benefit of the country, trying to bring in 
investment and support growth. But their disregard for land 
ownership is a setback to true and stable economic growth. Few 
provisions exist to ensure that individuals who have lost land 
are compensated in a fair and long-term manner, and the 
benefits brought in are going to the ultra-powerful few who 
already control most of the wealth.
    The result is that now in Cambodia, for example, three-
fifths of the arable land is held by foreign agribusinesses. 
The massive displacement policies by these governments are 
creating large numbers of landless poor, many left to live in 
squatter colonies. This is an unacceptable situation leading to 
a long-term crisis.
    Combined, Cambodia and the Philippines received almost $270 
million in U.S. foreign aid in 2014. This gives us enormous 
leverage to encourage growth and reform that will help the 
vulnerable and not just the powerful. This is the morally right 
thing to do, and it is the right thing to do for long-term 
stability.
    Today I am eager to hear expert testimony on the causes and 
the breadth of the problem, as well as the tools that are at 
our Government's disposal to push forward reforms. These 
stories from the second panel will drive home the urgency and 
humanity driving our need to act.
    Thank you again for the opportunity to speak today, and I 
look forward to hearing from each of you.
    Mr. Salmon. We are grateful to have two excellent witnesses 
from the administration, and we are really appreciative that 
they could join us on our first panel this morning.
    First we have James Carouso, the State Department's Acting 
Deputy Assistant Secretary of the Bureau of Asian and Pacific 
Affairs; and Jonathan Stivers, who is USAID's Assistant 
Administrator of the Asia Bureau.
    We will start with Mr. Carouso.

    STATEMENT OF MR. JAMES CAROUSO, ACTING DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Carouso. Chairman Salmon, Chairman Royce, Ranking 
Member Sherman, members of the committee, thank you for the 
invitation to testify before this distinguished committee on 
land tenure issues and their effect on Southeast Asia's 
economic development, a topic of significant importance to the 
Department of State.
    The Assistant Secretary for the East Asia and Pacific 
Affairs Bureau asked me to----
    Mr. Salmon. Mr. Carouso, could you pull your microphone 
just a little closer? Thank you.
    Mr. Carouso. Is this better?
    Mr. Salmon. Yes, thank you.
    Mr. Carouso. The Assistant Secretary really regrets he 
couldn't be here today, so he sent me.
    Special thanks to Cal Poly Pomona for providing this 
beautiful venue.
    My colleague, USAID Administrator Jonathan Stivers, will 
speak to the various programs USAID supports to address land 
rights in the region. I will focus my remarks on the State 
Department's efforts to improve the protection of land and 
property rights in Southeast Asia both from a human rights 
perspective and from a commercial perspective, which affects 
U.S. citizens and corporations abroad, as well as the 
countries' economic growth.
    Land and property rights issues remain critical in much of 
Southeast Asia and have a disproportionate impact on 
marginalized populations, including women, children, and 
indigenous groups. Transparent and fair land tenure laws, when 
followed, have a direct impact on foreign investment, poverty 
alleviation, and social stability. Without guidelines for 
officially-recognized land ownership documentation and 
effective mechanisms for dispute resolution, individuals are 
left in unstable situations and vulnerable to exploitation and 
abuse. For these reasons, we see land rights as a critical 
element to improving respect for human rights, strengthening 
the rule of law, and encouraging economic growth in the region.
    When looking at land tenure issues from a human rights 
perspective, a major challenge in Southeast Asia is that 
vulnerable populations, particularly women and indigenous 
groups, often lack the basic documentation to show their rights 
to the homes and land upon which they live. In Cambodia, for 
example, at least two-thirds of the population, many of them 
poverty-stricken farmers, lack proper title deeds to their 
property. This is largely a lingering effect of the Khmer Rouge 
regime, which abolished all private property and, consequently, 
property records as a part of its efforts to create a 
collectivized agrarian society. Lack of updated records leaves 
families who are removed from their land with little legal 
recourse to prove ownership of the land or property on which 
they live and vulnerable to human rights abuses.
    Recognizing this challenge, the State Department's Bureau 
of Democracy, Human Rights and Labor just recently began a new 
program to assist vulnerable communities in Cambodia, as well 
as in neighboring Vietnam. Working with local NGO partners, 
this project aims to create a multi-stakeholder, human rights-
based approach to land use impact studies in communities, 
integrating these processes into land governance and dispute 
resolution initiatives. This builds on previous efforts from 
2007 to 2010 that helped communities understand land rights 
under Cambodian law and legally document land claims to prevent 
eviction and ensure fair compensation, should the land be sold.
    A subsequent challenge to the enforcement of land rights is 
the strength of rule of law, which varies wildly throughout the 
region. Weak judicial institutions and corruption encourage 
private claimants to seek solutions outside of the legal 
system, which in turn hinders their ability to obtain a stable, 
legal solution to their dispute. It also unfairly prejudices 
the system toward the wealthy and powerful, exacerbating 
existing social and economic inequalities.
    The State Department's Bureau of International Narcotics 
and Law Enforcement Affairs is working around the world to help 
countries combat corruption by working with governments and 
civil society to build transparent and accountable public 
institutions operating in the criminal justice sector, a 
cornerstone of strong, stable, and fair societies that offer a 
level playing field. INL works with these partners through 
training, technical assistance, and mentoring to fight 
corruption and promote laws and court systems that are fair, 
legitimate, and accountable.
    To take the Philippines as an example, the Philippine legal 
system contains a fairly robust set of laws that regulate land 
in urban and rural areas. These laws address inheritance 
issues, provide guidance on property ownership, and require 
registration of land titles through the judicial process. The 
Philippines also has institutional actors who oversee the 
implementation of these laws, including the Land Registration 
Authority and local government units that develop land-use 
development plans and zoning ordinances. The Government of the 
Philippines has also partnered with the World Bank and the 
Government of Australia to develop land administration policies 
and laws that formally recognize and record the rights of land 
holders through the Land Administration and Management Project.
    In the Philippines, the institutions and laws governing 
land rights exist, but outdated land administration laws, an 
inefficient land administration and adjudication 
infrastructure, a poor land information system, and weak 
judicial institutions have resulted in problems of fraudulent, 
overlapping, and duplicate land titles and have led to 
widespread accusations of illegitimate land seizures. These 
challenges have also contributed to high transaction costs in 
securing, registering, and transferring property rights, and to 
tenure insecurity. Inconsistent legislation and policy 
declarations have led to unsustainable land use and conflict 
over competing land uses. Over the past decades, many countries 
in the region, including the Philippines, have tried various 
versions of redistributive land reform programs with little or 
no success in an effort to redistribute land from the landlords 
of various agricultural products to their tenants.
    The strength of land rights has an impact on human rights 
as well as rule of law issues, but it also has a significant 
impact on a country's commercial climate and overall economic 
prospects. As Chairman Royce indicated earlier, Hernando de 
Soto, a Peruvian economist known for his work on land rights 
reform and the informal economy, found that a nation cannot 
have a strong market economy without strong property rights. 
Many small entrepreneurs lack secure legal ownership of their 
property under a functional legal framework and therefore lack 
access to functioning financial markets, so they may be unable 
to obtain credit, sell or expand their business. Without the 
ability to monetize or collateralize their biggest asset, the 
growth potential of small-holders and entrepreneurs may be 
limited, and they cannot seek legal remedies to land conflicts 
in court.
    In an effort to provide accurate information to U.S. 
businesses interested in investing abroad, the State Department 
prepares annual, country-specific Investment Climate 
Statements, while the Department of Commerce writes Country 
Commercial Guides. These reports include a detailed discussion 
of the quality of a country's legal and institutional 
frameworks for protecting property rights, including the 
transparency of their regulatory system, the legal basis for 
land ownership, dispute settlement mechanisms, and corruption. 
These act as a prod to these governments to do better.
    In addition to State and USAID advocacy programs and 
reports, the U.S. Millennium Challenge Corporation also 
considers the rule of law and property rights in its initial 
selection of partner countries. Where these issues later prove 
to be binding constraints to economic growth after a country is 
selected, MCC may support projects that address them. 
Currently, MCC has a partnership agreement known as a 
``compact'' with Indonesia, will complete a compact with the 
Philippines in May 2016, and is developing a second compact 
with the Philippines.
    Thank you, Mr. Chairman, for the opportunity to testify on 
the status of land rights and land tenure in Southeast Asia and 
on the various programs the State Department supports to pursue 
greater justice on these issues. I look forward to answering 
any additional questions you may have.
    [The prepared statement of Mr. Carouso follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Stivers?

    STATEMENT OF THE HONORABLE JONATHAN STIVERS, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Stivers. Chairman Salmon, Ranking Member Sherman, 
Chairman Royce, and distinguished Members of Congress, thank 
you for the invitation to testify on the role of USAID in 
advancing secure property rights, which are fundamental to 
development not only in Southeast Asia but globally. It is an 
honor to be here today before the committee at Cal Poly Pomona, 
and it is also a pleasure to be here with my State Department 
colleague, James Carouso.
    Land rights are not only an economic issue but a human 
rights issue. In countries around the world, the absence of 
secure property rights protected by an effective rule of law is 
a major constraint to poverty alleviation and security. In 
Southeast Asia, we know from our decades of work and public 
surveys that property rights are either at the top or among the 
top concerns of the people of this region.
    Chairman Royce, in particular you have been a champion of 
this issue, challenging us at USAID to provide more effective 
assistance to those fighting for property rights. Thank you for 
your leadership.
    Strengthening land rights is central to USAID's mission of 
ending extreme poverty and promoting resilient, democratic 
societies. Our activities are making a difference in the lives 
of many who have suffered injustices and are paving the way for 
generations yet to come.
    When property rights are unclear, households are less 
likely to make long-term investments in their land, investments 
that can promote economic growth and prosperity and lift people 
out of poverty.
    When there is unfair confiscation of land for large-scale 
commercial operations, it often results in damaging the 
environment, which further destabilizes rural communities.
    When women do not have the right to own or access land, 
their families and communities suffer, because women with 
secure rights to land and resources tend to better invest in 
their children's nutrition and education and the future of 
their countries.
    When accessible and effective mechanisms for resolving land 
disputes are absent, conflict can erupt that undermines peace 
and stability. We know that some of the oldest, most 
complicated conflicts in Southeast Asia are rooted in disputes 
over land.
    For the purposes of the hearing today, I will provide brief 
overviews of the land tenure challenges and our initiatives in 
the Philippines and Cambodia. But, of course, I am open to 
answering questions about other countries in the region.
    In the Philippines, the U.S. Government's Partnership for 
Growth has supported collaboration with the Government of the 
Philippines to address the country's most serious constraints 
to inclusive and lasting growth. Protecting land rights is 
absolutely key to that effort.
    The results of a recent USAID assessment of key constraints 
to secure property rights identified the challenges of 
overlapping mandates and lack of coordination between 
government institutions working on land issues; a low 
percentage of land parcels that are formally registered, 
estimated at only 50 percent due to the high cost and lengthy 
property registration processes; and delay and the high cost of 
court cases has caused a large backlog of all types. For 
example, 90 percent of the cases, of which 17 percent were land 
disputes, handled by the Supreme Court in 2012 took more than 
20 years to make their way through the system.
    In response to these challenges, USAID has been leading the 
way. Some of our current projects in the Philippines include, 
first, the JUSTICE Project, and this provides technical 
assistance to help improve the efficiency and predictability of 
the adjudication of court cases. In the largest court district 
in the country, which handles an estimated 15 percent of all 
court cases in the country, the median processing time has been 
reduced by between 60 and 78 percent in the last few years.
    We have introduced automated case management, which wasn't 
there before, docket decongestion and streamlined litigation 
procedures.
    What remains to be done is to scale up these interventions 
out of just this one district in order to have a broader impact 
on delay and congestion. We are now in the process of expanding 
this project to eight additional urban areas and hope to expand 
it even more in future years.
    Second, we have the COMPETE Project, which promotes 
economic growth in a variety of ways, including providing 
technical assistance for government agencies to enhance land 
tenure and access rights. Through this project, we supported 
the implementation of the Residential Free Patent Act, which 
was passed by the Philippine Government, which streamlines the 
process for obtaining residential land titles outside the 
lengthy court process, and it also helps facilitate the process 
of using these titles as collateral to obtain loans. Our 
support has helped establish a public land titling program that 
during its first year increased the number of residential 
titles issued from 5,000 to 65,000 per year.
    Third, through our Rebuild Project, we have helped restore 
approximately 250,000 land ownership records damaged or 
destroyed by Typhoon Haiyan.
    And last, moving forward, I am pleased to formally and 
officially announce the launch of our new SURGE Project, which 
stands for Strengthening Urban Resilience for Growth and 
Equity, that will promote land rights in the Philippines. This 
project has been in the design phase, but today we are 
obligating $10.6 million in the first year of a 5-year, $48 
million program subject to the availability of funds in future 
years. This includes helping targeted cities at the local 
level, as Chairman Royce emphasized, with land use planning and 
zoning, improving land management information in coordination 
at the local level, and strengthening the capacity of land 
management offices to secure land and access rights.
    This committee's counsel, and particularly the leadership 
of Chairman Royce, has been integral in shaping the activities 
under the SURGE Project. I am proud of the work that we have 
done together with this committee, former Administrator of 
USAID Rod Shaw, who was here in January to speak about this 
issue, the Asia Bureau in Washington, and our mission in the 
Philippines. I think this is an excellent example of how the 
constituents and the community can forward issues to Members of 
Congress who take a leadership role in the issue, work with the 
administration to produce real outcomes to try to improve a 
system that needs a lot of improvement.
    I look forward to further engaging with this committee as 
we get SURGE off the ground in the coming months.
    Mr. Salmon. Thank you, Mr. Stivers.
    Oh, I am sorry.
    Mr. Stivers. In Cambodia, the state retains broad powers to 
acquire land, including for large infrastructure and private 
forestry and agriculture, which undermines individual property 
rights and attracts irresponsible investment. Property rights 
in Cambodia are further complicated by a weak rule of law, 
which enables existing legislation to be circumvented, 
particularly in cases that involve rich and influential 
individuals or companies, which leads to conflict and forced 
displacement in Cambodia.
    USAID is focusing on empowering the reformers in Cambodia 
through support for civil society and support for indigenous 
peoples involved in land disputes. Some examples include an 
organization which we provide funding for whose advocacy 
resulted in the government returning land to 747 families just 
a few months ago. The Prey Lang Community Network, which is a 
group of indigenous communities advocating for the protection 
of the largest remaining lowland evergreen forest in Southeast 
Asia, we provided support to secure communal land titles and 
helped them earn income from a variety of non-timber forest 
products. We helped improve forest monitoring through extensive 
mapping, data collection and community patrolling, and this 
effort has improved monitoring and reporting of land rights 
violations and environmental degradation.
    And for the first time in Cambodia's history, the 
government now formally recognizes the rights of indigenous 
communities through the issuance of communal land titles, an 
historic benchmark that USAID supported. We also supported a 
local NGO Open Institute in the development of a cell phone 
application that gives one minority group first-time access to 
nearly 70 articles of Cambodian land law in their native 
unwritten language which helps them better understand their 
legal rights relating to land ownership.
    Mr. Chairman, at USAID, advancing secure land rights is at 
the core of our mission and a key part of our work across 
sectors. Secure land rights protected by an effective rule of 
law are necessary for both democratic governance and inclusive 
economic growth that helps lift the world's most vulnerable 
people out of poverty and engender more resilient societies.
    Thank you for the opportunity to testify today, and I look 
forward to your counsel and questions.
    [The prepared statement of Mr. Stivers follows:]
    
    
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thanks, Mr. Stivers.
    I am going to start out with a question that would be 
directed to both of you, and then I will yield to the chairman.
    For many Southeast Asian countries, foreign investment from 
large corporations furthers economic growth. However, some of 
the region's rural farmers have had their land taken away by 
these large agribusinesses, developers and others. In Cambodia 
alone, over 400,000 rural people have been displaced by 
acquisition of land by these large corporations.
    How can these countries effectively balance the desire for 
increased and continued economic development and that kind of 
prosperity with the need to protect the rights and the 
livelihoods of the poorest citizens?
    We will start with you, Mr. Stivers.
    Mr. Stivers. Well, I think that in terms of that question, 
the issue of land rights is central to that in terms of helping 
farmers. We know the constraints to farmers in terms of being 
more productive and accessing their lands. Access to credit, 
prohibition of land sales, especially in the Philippines, are 
issues that need to be addressed in order to realize the full 
potential of our reform programs. Connecting rural areas to 
urban areas is a key part of our SURGE Program, for example. 
But if you don't have respect for land rights, it is hard for 
farmers to realize their full economic potential in a country.
    Mr. Salmon. Mr. Carouso, do you want to take a stab at 
that?
    Mr. Carouso. Fair, adequate, and timely compensation for 
any taking of land under eminent domain is part of every modern 
society. Clearly the question is, are those characteristics 
met? Is the land taken for the public good, and do those who 
are affected have access to a judicial system that will fairly 
consider whether they are being compensated fairly and in a 
timely manner so that they can go on with their lives?
    Mr. Salmon. Thank you.
    Mr. Chairman, I yield to you.
    Mr. Royce. Chairman Salmon, let me yield to Brad Sherman, 
if he would like to go at this time.
    Mr. Sherman. The Comprehensive Agrarian Reform Program was 
enacted in the Philippines in 1988. It had the declared 
objective of redistributing public and private agricultural 
lands to farmers and farmworkers who are landless and have 
perhaps an equitable title of ownership, and it was designed to 
empower agrarian reform.
    Is the CARP legislation still substantially in place today? 
How is the land distributed in the Philippines among the 
government, private landowners, tenant farmers, small 
landowners? How does the government decide which lands are 
public and which are private?
    Mr. Stivers. In terms of overall, I think the World Bank 
estimates that about 50 percent of the land in the Philippines 
is for private use. I'm sorry, 47 percent for private use and 
about 50 percent for public use. But 50 percent of that----
    Mr. Sherman. So the government owns half the land?
    Mr. Stivers. For public use, yes. I should say 47 percent 
is private. Now, the problem with that statistic is that 50 
percent of land parcels are registered, so it is hard to know 
the specifics of those kinds of statistics. But that is from 
the World Bank.
    Mr. Sherman. I interrupted you and asked a multi-part 
question.
    Mr. Stivers. In terms of cultural programming in the 
Philippines, USAID doesn't have actual agricultural programs in 
the Philippines outside of some work that we do. But certainly 
the lack of land rights poses challenges to farmers there, as I 
mentioned in response to Chairman Salmon's question.
    Mr. Sherman. Mr. Carouso, are there particular large 
international companies that are benefitting in the Philippines 
from land seizure? And perhaps you could address Cambodia as 
well.
    Mr. Carouso. I am not aware of any particular large foreign 
entities in the Philippines taking advantage. It is mainly a 
Philippines issue. There is a large, powerful Philippine group 
that seems to control much of the economy. Part of the problem 
is that there are so many laws and regulations at the Federal 
and local and provincial level that people have a hard time 
understanding the law and who has jurisdiction. One of the 
things that AID's programs are trying to do is help streamline 
and make sensible all these laws.
    In Cambodia, my understanding is it is mainly Chinese and 
Vietnamese entities that are buying up these large parcels for 
basically corporate-style farming.
    Mr. Sherman. Do they then employ the people who had 
traditionally worked the land as farmworkers, or where do they 
get their labor?
    Mr. Carouso. I don't know the answer to that, but typically 
Chinese like to employ Chinese. But I don't know if that is----
    Mr. Sherman. Does the Cambodian Government allow Chinese 
farmworkers to work for these companies, or we don't know?
    Mr. Carouso. I will have to get the answer for you, sir.
    Mr. Sherman. Mr. Stivers, I don't know if you have a 
comment about that.
    Mr. Stivers. No, I don't know how to answer that question.
    Mr. Sherman. Mr. Stivers, what can USAID do to help 
modernize land title registration in the Philippines?
    Mr. Stivers. Well, I think the first thing we can do as we 
move forward with this new SURGE Program, which I think is 
absolutely essential in terms of working with local 
communities, local governments in terms of making the system 
more efficient, our approach really has been a holistic 
approach which is focused on the judiciary and the 
administrative issues in terms of land titling, focusing on 
constraints to economic growth more generally, and then 
resilience to natural disasters. I think between that approach, 
in addition to tackling corruption, of course, which is a major 
issue, is the way to move forward.
    In terms of the courts, it is making the court system more 
efficient. It is challenging, but the court system is the way 
to resolve land disputes, and that is the appropriate way, and 
we need to help the Philippines make that system work better, 
and that is what we are doing with our JUSTICE Act.
    Administratively, trying to make sure that the government 
and the local governments have the capacity to respond to land 
disputes, issue land titles so that people can have their land 
registered appropriately. It is a lot of technical assistance, 
which is what USAID is best at in terms of how to, how do we do 
this, and I think that is where we have a comparative advantage 
over other countries especially and we can make a difference.
    Funding is always a consideration in terms of how much we 
can provide. We can work in one court system, but as the people 
in this room know full well, the challenge is so great and we 
have so much that we can do, but the best we can do is take our 
small projects and try to expand them the best we can.
    Mr. Sherman. The Philippines, and even more so Cambodia, 
are relatively poor countries in Southeast Asia. Are there 
other countries in Southeast Asia with similar economics that 
are doing a better job? And if so, why are they able to do a 
better job of making the rule of law apply to real estate? Are 
the kinds of problems we have talked about here observed in 
Indonesia, Malaysia, Thailand, or is this a region-wide problem 
with developing countries? We have the two examples we focused 
on here today. Are they far more egregious?
    Mr. Stivers. I would say that in terms of--there is a great 
need in Southeast Asia on this issue, a great need in all the 
countries that USAID works in in Southeast Asia--Timor-Leste, 
Indonesia. Burma surely has huge land rights issues and land-
grabbing issues.
    We have focused on the countries where we believe we can 
make the most difference, the Philippines number one. But I 
think there is a great need to try to expand to other countries 
because this is almost the number-one concern over all other 
issues in many countries, and we see that from public surveys. 
So we would like to do more, yes, in other countries.
    Mr. Sherman. Thank you.
    Mr. Salmon. The Chair will recognize Chairman Royce.
    Mr. Royce. I think one of the reasons it is the number-one 
concern is the testimony that I think, James, you mentioned, 
Hernando de Soto's work. He did a lot of work in the 
Philippines, and part of that was to try to determine how we 
could get those building blocks down so that people could 
borrow against property and create economic growth and how you 
would really have the fundamentals necessary. His work is still 
a best seller. ``The Mystery of Capital'' is the name of it, 
especially for students here. ``The Mystery of Capital, Why It 
Succeeds in the West and Fails Everywhere Else.'' It is a book 
on economics by the individual who helped do land reform in the 
Philippines, by this economist Hernando de Soto.
    When we look at the situation after Tacloban, and our 
committee was there on Tacloban, we asked questions at the time 
about what could be done to ensure that individuals did not 
lose their land after the consequences of being displaced. I 
recently saw a story in the Philippines Enquirer that indicated 
that on the neighboring island of Sicogon there were 6,000 
families who were prevented from returning to their homes by a 
company that claimed that it owned the underlying rights. It 
was a developer. The developer says, well, I own the underlying 
rights to the land on which the families lived. And, as they 
say in the press, these reports may be the first signs of the 
onslaught of an age-old problem fundamental to many conflicts 
in disaster- and poverty-stricken areas--access to land.
    So if we could follow up on that case, I will be in contact 
with you.
    Second, I understand USAID conducted an assessment in the 
Antipolo region in the Philippines and identified numerous 
challenges in the land tenure and titling system there. What 
were those challenges, quickly, if you could explain them, and 
I will ask USAID this question, Jonathan. How can they be 
addressed? And what, if anything, can USAID continue to do to 
help address these problems?
    Mr. Stivers. Well, thank you. It was about 1 year ago, 
actually today, that we sent a scoping mission out to the 
Antipolo region to look at the cases there and see if they were 
reflective of the broader challenges to get a better sense of 
the challenges faced in that region and how to make our 
assistance more effective in terms of tackling these issues.
    The findings revealed that there is unresolved rival 
property claims, growing private real estate investment in that 
area, and institutional gaps in land administration at the 
local level. Some of the challenges I mentioned in my 
testimony. Overall, it is reflective of what is going on in the 
country, frankly.
    Overall, overlapping mandates and lack of coordination 
between government institutions; the fact that only 50 percent 
of land parcels in the country are registered; and delay and 
the high cost of court cases. I think USAID is taking the right 
approach in terms of trying to address this issue as 
holistically as possible in terms of trying to make the courts 
more efficient, trying to promote economic growth and 
government administration, and dealing with the issues that you 
mentioned in relation to displacement from Typhoon Haiyan.
    Thank you for providing the leadership in order to give 
USAID the space to move forward on these issues in a very 
difficult budget environment that we have.
    Mr. Royce. One of the other things that struck me when I 
was out there is that local security forces, private security 
forces seemingly, have a role or have taken a role through use 
of force in asserting claims by developers. I wondered, have 
these security forces been held accountable for such acts? And 
how often, in what circumstances, and at what level are these 
cases being raised by the U.S. Embassy in Manila? I have raised 
the issue on three occasions, but I just wondered in terms of 
the Embassy itself, do you have a dialogue going on? Maybe 
James could speak to that issue.
    Mr. Carouso. Sure. Mr. Chairman, following your visit, 
Ambassador Goldberg called on the Secretary of Foreign Affairs, 
the Secretary of Justice, and key folks at the Presidential 
Palace, all the way to the top, pointing out that this is an 
indication of a severe lack of rule of law, that private 
security forces could act with such impunity.
    The interesting change over time is it is no longer the 
official security, the official police and military. It is the 
privatized. But the problem is, then, how does someone seek 
justice to push back? That is the missing gap that the new 
program should fix.
    Mr. Royce. My time is almost up, but I would ask one other 
question along this line. How is it possible, taking Hernando 
de Soto's theory, that the reason we have created such 
incredible opportunity here in the United States is because of 
our ability, something we don't really understand, our ability 
under land title to borrow against that property? Therefore, 
any of us can basically start a business. Is it possible with 
the situation as it is in parts of the Philippines, where 
people do not have access to clear title, is it possible for 
them to go out and borrow against that home or that farm in 
order to raise the capital to have collateral, to have that 
access to the capital that they are going to use to develop 
something or to build on the land? What is that circumstance 
like in these areas where this is still a gray area?
    Mr. Carouso. I would suggest that having the land title is 
absolutely essential to that, and the fact that people don't 
have land title and there are competing claims is a barrier to 
getting credit.
    Mr. Royce. Therefore to economic growth, to development.
    Mr. Carouso. Right.
    Mr. Royce. To opportunity for the next generation. That is 
why it is so important.
    But I have exceeded my time, Mr. Chairman. Thank you.
    Mr. Salmon. Thank you.
    Dr. Chu?
    Ms. Chu. Mr. Carouso, in 2013 the World Bank ranked the 
Philippines 108th out of 189 countries in the world for ease of 
doing business. Now, the good news is that they improved 30 
places since 2012. The bad news is that they are 108th, and 
that reflects the country's continuing problem with poor 
revenue collection, inadequate spending on social services and 
infrastructure, government corruption and instability.
    What kind of return on our investment are we seeing in the 
Philippines, and what is the administration's view of this 
stance, the world standing by the World Bank? Is there any 
progress really going on with the Aquino government?
    Mr. Carouso. Congresswoman, this is an issue that we point 
out to our Philippine colleagues constantly, that if they want 
to continue the very impressive economic growth they have 
achieved over the past few years, they have got to do better, 
and they acknowledge that. The fact that they have improved 30 
places is quite significant, and we attribute that to the fact 
that the Philippine people elected President Aquino on the 
basis of he was a reformer, he was going to fight corruption, 
he was going to fight the big landowners, but it is a tough 
job. What the United States Government has been trying to do is 
support him in that effort, help him as much as we possibly 
can, while recognizing that it is, obviously, up to the 
Philippine people to do that.
    To be blunt, the fight we have to some degree on improving 
the ease of doing business is that there is a sense of 
nationalism, that if foreigners invest, that means somehow 
Filipinos, even poor Filipinos, don't have those opportunities. 
So we are trying hard to explain that foreign direct investment 
is an economic driver that lifts all the boats, not taking away 
any benefits from domestic entities.
    Mr. Stivers. And if I could just answer also, the umbrella 
of all of our work in the Philippines is under something we 
call the Partnership for Growth. In 2011 we entered this 
agreement with the Philippines Government to address the 
binding constraints to economic growth and development. It is 
only in four countries that we have this worldwide, and it is 
those key countries that we hope to be the next generation of 
the emerging markets where we can kind of tackle the governance 
issues, plus the economic growth competitiveness issues and 
combine them together under a plan and a rubric.
    Since that time we have seen real GDP growth average almost 
7 percent since that agreement. As you mentioned, the world 
competitiveness rankings have increased, although not high 
enough, of course. But the world's leading credit agencies have 
upgraded Philippines sovereign credit ratings.
    There has been a lot of success. Land rights, of course, is 
key to making this work. But in terms of a strong ally in the 
region, in terms of the Philippines, trying to help the 
Philippine Government have a better rule of law, a stronger 
rule of law to improve their competitiveness and economic 
growth is kind of under the umbrella of Partnership for Growth, 
and we have seen some success, not enough. We have to do a lot 
more to help them.
    Ms. Chu. In fact, Mr. Stivers, it was 37 years ago that the 
Philippines senate passed a comprehensive agrarian reform plan. 
But since then, you, the USAID, has reported that the majority 
of the world population remains landless and there is confusion 
over land titles, leading to a continuing problem with land 
grabbing, and much of this has to do with the outdated and 
contradictory laws and the powerful who are taking over these 
lands.
    So, we know that there are more than just resources. There 
are legal problems that are getting in the way of getting land 
to the world's poor. Which of your programs would most 
accelerate the process, since it has been 37 years since they 
passed it, with not much progress?
    Mr. Stivers. Well, I would suggest our COMPETE Program that 
I mentioned in my testimony. But I think in terms of moving 
forward, the SURGE Program that I mentioned, which we are 
launching now, is going to have a real focus on the population 
centers outside of the Manila metro area which have not 
experienced the same economic growth as the Manila area. So 
focusing on those issues, connecting some of the rural to urban 
areas, and working on the land titling and land rights issues 
are key to that. That is what we think will make some progress 
moving forward.
    Ms. Chu. And lastly, let me ask about Cambodia, Mr. 
Stivers. Last month, about 200 Cambodian villagers protested 
outside the Cambodian Parliament building demanding a 
resolution to their land dispute cases. According to the 
reports, lawmakers responded that the National Assembly is not 
the court, so they cannot decide who are the winners and 
losers.
    While we want to maintain the independence of the courts, 
are there legislative solutions that can be put forward to make 
the judicial system more favorable to vulnerable populations? 
And what do you think about the feasibility of the UNHRC's 
proposal of an independent body to resolve these disputes?
    Mr. Stivers. The rule of law and human rights are the major 
focus of our policy in Cambodia and a serious, serious concern. 
We believe that it is less an issue of the law, what the law 
says, because the laws are actually not bad in terms of how 
they are written, but in the implementation and practice of 
those laws. So that is where we are focused in terms of trying 
to empower the reformers and a lot of these civil society 
organizations who are pushing for real change in terms of their 
individual land disputes, their group land disputes, and they 
have had a strengthened voice over the years.
    So we believe that is the right way to focus our assistance 
in Cambodia.
    Ms. Chu. Thank you.
    Mr. Salmon. Thank you.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much.
    Just a few details here on some specific points that have 
been made.
    There are many problems in Vietnam, for example, where we 
don't have political freedom, and economic freedom is basically 
based on cronyism with the ruling elite, with the ruling 
political elite, and you have now an economic elite.
    There is no foreign aid to Vietnam, is there?
    Mr. Stivers. We provide foreign assistance to the people of 
Vietnam in a number of sectors. We do not provide any 
assistance to the government. We do health work in Vietnam, 
yes, and some other sectors. In terms of rule of law and things 
of that sort, yes.
    Mr. Rohrabacher. Do we have an aid? How much money are we 
spending in Vietnam?
    Mr. Stivers. The USAID, in Fiscal Year 2014, it was $95 
million, total, of which half of it was health and fighting 
infectious diseases.
    Mr. Rohrabacher. Health and infectious disease.
    Mr. Stivers. Yes, PEPFAR----
    Mr. Rohrabacher. So they are repressing their people, and 
they are using their own money for instruments of repression, 
and we are using our money to aid them, to make sure their 
people are taken care of with infectious diseases. Actually, 
they have plenty of money to take care of their people with 
infectious diseases. It is just that they don't spend it on 
that. They spend it on repression and other types of repression 
like having a huge police force and military force to make sure 
that the thumb is down on their people.
    What about Cambodia? How much do we give in foreign aid to 
Cambodia?
    Mr. Stivers. We provided, in Fiscal Year 2014, $66 million, 
of which about half of that was in the health sector also.
    Mr. Rohrabacher. All right.
    Mr. Stivers. And about $20 million of that was in democracy 
and government, empowering the reformers, those sorts of 
issues.
    Mr. Rohrabacher. Right. I understand the last point, and I 
think it is important for us to understand that when we do 
invest in countries by helping people and NGOs, et cetera, that 
are demanding human rights, that that does edge that country in 
the right direction.
    When we start taking over the actual obligations of the 
dictatorship to take care of its people, like in responding to 
infectious diseases, I think we are actually bolstering the 
dictatorship itself. I know that we would like to be able to be 
the benefactor to everyone around the world who lives in a 
dictatorship, but I don't think that is right, and I don't 
think it will lead us to more of a democratic society.
    We have two types of government that we are talking about. 
In the Philippines you have a democratic society. In the 
Philippines you have a democratic government, but it is not in 
the area of respecting the rights of its ordinary citizens in 
terms of their property rights. They fall far short of what we 
consider to be the standard.
    Helping governments like the Philippines is not something 
that I find objectionable, but I do find it objectionable that 
we are providing any type of assistance that would take away 
the burden of that government to their own people of 
dictatorships like Cambodia. Hun Sen has only been there, I 
guess, about 30 years now.
    Let me just note that also and for the record, we are not 
going to forget Sovannara Meach. An American citizen now is 
imprisoned in Cambodia by this vicious dictator. We will not 
forget him, and I would hope that our Embassy and also our 
people who are involved with aid and trying to develop trade 
relationships with these countries will not forget, especially 
when an American citizen is put in jail, much less their own 
citizens, which we should care about. But when they have one of 
our own and we move forward with ordinary relations, it is 
unconscionable.
    So I would hope that--I like what I have heard so far. You 
are paying attention to this issue. Actually, you have some 
very fine ideas that we are about to implement. We are going to 
watch very closely.
    Again, I want to thank Mr. Royce for his leadership, and 
Mr. Salmon for his leadership, and we will be watching. So, 
thank you very much.
    Mr. Sherman. Thank you.
    Thank you to the distinguished panel. We would like to 
allow you to go ahead and excuse yourselves from the dais. We 
would like to seat the second panel and move forward as quickly 
as we possibly can. Thank you.
    Mr. Carouso. Thank you.
    Mr. Stivers. Thank you.
    Mr. Salmon. Thank you.
    [Pause.]
    Mr. Salmon. All right. We are fortunate this morning to 
also hear from a second panel of witnesses with personal 
knowledge of property rights in the region.
    First, Ms. Faith Bautista is the president and CEO of the 
National Asian American Coalition. Welcome here today.
    Mr. Joey Quinto is the publisher of the California Journal 
for Filipino Americans. Thank you, Joey. Glad to have you here 
today.
    Mr. Zosimo--did I say that right?--Zosimo Contreras joins 
us as the current litigant in a property dispute in the 
Philippines.
    And Mr. Richard Rogers is a law partner at Global Diligence 
LLP and represents Cambodian land-grabbing victims before the 
International Criminal Court.
    We thank the panel for joining us this afternoon, and we 
will start with you, Ms. Bautista.

STATEMENT OF MS. FAITH BAUTISTA, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, NATIONAL ASIAN AMERICAN COALITION

    Ms. Bautista. Thank you, and thank you so much for doing 
this. As far as I am concerned, you have a lifetime supply of 
lumpian and pancet for doing this for the Filipino community. 
So, thank you.
    I am the CEO and president of one of the largest pan-Asian 
American advocacy organizations in the U.S. We are also the 
most prominent Asian American proponent of home ownership in 
America and work closely with thousands of generally small and 
medium-sized Asian American businesses such as the Island 
Pacific Supermarkets.
    I am here to represent the Belisario family and the 
Belisarios of the world that reside in the U.S. There are 
thousands of these families who are U.S. citizens and are, in 
effect, subsidizing the Philippine Government and its corrupt 
officials and cronies who continue to misappropriate property 
titles from Philippine American citizens. I wish to give a 
personal example and also wish to disclose that I am a domestic 
partner of one of the victims. The example I wish to describe 
is the Belisario family who now resides as citizens in the 
U.S., including my boyfriend.
    Here is the tale that could happen only in a foreign nation 
where corruption is considered the usual law of the land. 
Forty-four properties of the Belisario family were illegally 
seized by the Philippine Government or those acting as its 
agent. For example, titles were transferred from the legitimate 
owners to non-legitimate owners, often without any 
documentation.
    The Belisario family's mother and father died in the 
Philippines, and their six sons and daughters moved to the U.S. 
more than 30 years ago. These five children--I am sorry, one is 
still in the Philippines. These five children have spent at 
least 2 years each in the Philippines unsuccessfully seeking to 
regain their illegally seized land and properties.
    I have a complete list of these properties and the records 
that demonstrate that they own the property and that the 
properties were illegally seized. I am providing it to the 
committee today. Some of the property was illegally seized 
through illegal use of eminent domain powers. There is even 
evidence that the Philippine Government admits to some of the 
illegal seizures and the millions of dollars--hundreds of 
millions of pesos--due the Belisario family. For example, a 
bank in the Philippines has some of the documents but will not 
release the documents. This is apparently due to orders of the 
Philippine Government or those who contend that they are acting 
under the authority of the Philippine Government.
    I am unclear that the estimated $20 million to $30 million 
due the Belisario family will ever be repaid, and I am unsure 
how the U.S. Government can ever make the Philippine Government 
compensate families such as the Belisarios. However, I have the 
following recommendations which could benefit many thousands of 
Filipino American families in the U.S.
    First, every Filipino American who believes their property 
was illegally seized at any time since the Philippines became 
independent in 1946 should be able to provide a simple form to 
the Secretary of the Treasury, Jacob Lew, or the USAID, 
documenting their grievance and setting forth the amount due to 
them.
    Second, the Secretary of the Treasury or the USAID shall be 
granted the authority to request directly from the President of 
the Philippines that the Philippine Government promptly and 
comprehensively respond to each complaint filed by an American 
citizen.
    Third, from funding from the billions of dollars each year 
that the U.S. provides to the Philippines in various subsidies, 
the Philippine Government shall jointly, with the Secretary of 
the Treasury and leading Filipino American community 
organizations, appoint an independent auditor or special 
monitor to examine each claim and provide prompt reports with a 
specific resolution. This is a method the U.S. Secretary of the 
Treasury is very familiar with. That is, Treasury frequently 
uses special monitors to examine records of major banks as they 
relate, for example, to improper foreclosures.
    Since I have personally worked and met with the Secretary 
of the Treasury, the chair of the Federal Reserve, and the U.S. 
Comptroller of the Currency, I would be happy to offer further 
suggestions to this committee and to appropriate Federal 
Government officials. I am also prepared, at my own personal 
expense, to assist any independent special monitor in 
developing effective auditing mechanisms. I estimate that this 
could result in billions of dollars, or hundreds of billions of 
pesos, being returned to hard-working Filipino American 
citizens.
    And I just want to let all of you guys know, we have an 
office in Washington, DC, and I really appreciate Congressman 
Chu, Chairman Salmon, Chairman Royce, and all of you, that you 
really do care for the Southeast Asian. We are great citizens 
in this country, and thank you again for your help.
    [The prepared statement of Ms. Bautista follows:]
   
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Quinto?

STATEMENT OF MR. JOEY QUINTO, PUBLISHER, CALIFORNIA JOURNAL FOR 
                       FILIPINO AMERICANS

    Mr. Quinto. Good morning, Chairman Salmon, Chairman Royce, 
Ranking Member Sherman, Congressman Rohrabacher, Congresswoman 
Chu. I am Joey Quinto, publisher of California Journal for 
Filipino Americans.
    I am here today because I am a land-grabbing victim, in 
particular a victim of land-locking by a well-connected and 
powerful military general in the Philippines.
    My family has two properties in Antipolo, Philippines. But 
a retired military general has been blocking the access road 
for many years now, so we and the more than 700 land parcel 
owners could not enter our properties.
    The general, who has a two-story house, gates and fences 
with security personnel blocking the access roads, does not own 
land in Antipolo as per the Assessor, and does not have a 
building permit as per the Antipolo City Hall.
    The general is a chairman of a savings and loan. The 
Central Bank is the regulator. Under Republic Act 8791, it 
states that all directors of a supervised institution should 
possess honesty and integrity. I requested the Philippine 
Central Bank to open an inquiry, but they declined my request.
    I also have given the documents to some government 
agencies, but none of the agencies have done any action to stop 
the general from blocking the access road. This is lack of 
government accountability, no rule of law, and no respect of 
property rights.
    The Department of Environment and Natural Resources tried 
to do their inspection to our properties, but they were stopped 
by the security personnel of the general.
    In another circumstance, the mayor stated in a letter to 
the ombudsman that the City Hall's personnel, together with the 
Philippine National Police and the SWAT team, tried to enter 
but they were stopped by the security personnel of the military 
general.
    Clearly, this general has the power to stop the Philippine 
laws from being enforced. He is either above the law or simply 
being tolerated by the Philippine Government.
    The Philippine Republic Act 6713 requires all public 
officials and employees to respond within 15 days to any 
communications sent by the public. Disappointingly, numerous 
government agencies have been disregarding Republic Act 6713. 
In fact, I have been requesting the police chief for a copy of 
the letter the general has given him addressed to the 
Philippine Central Bank. But for more than 130 days now, the 
said letter has not been given to me.
    The Department of Interior of the Local Government, the 
DILG, is a national government agency that has direct 
jurisdiction to the police and local government. I requested 
the DILG to call on the police chief to give me a copy of the 
letter from the general, but they were helpless. Even the 
mayor, who finally issued a violation of illegal structures to 
the general, has not acted completely against him. It has been 
more than 15 days now that I have requested a condemnation 
letter and removal of the illegal structures of the general, 
but I have not received any reply.
    I also requested the DILG to call on the mayor to execute 
the notice of removal of illegal structures, but they have not 
exercised their jurisdiction to the mayor.
    The culture of delay and no response could be considered a 
violation of Republic Act 6713. The general is just one of the 
many abusive individuals in the Philippines.
    Let me now cite some victims who are suffering because of 
land grabbers.
    Mr. Pablo left the Philippines because the land grabbers 
wanted to kill him. This is with a police report.
    Mr. Cabrillos has been trapped in a corrupt court system. 
It has been 15 years of no progress on his fight for his land.
    Mrs. Bolozzos stated that the land grabber burned her house 
with the intention of killing her.
    And a family in Cebu did not get any protection and help 
from the police against a military officer who built fences 
around their property.
    The Philippine Government should follow the guidelines of 
the U.S. grants that come from American taxpayers.
    With the help of the U.S., I hope that the rule of law, 
property rights, transparency, good governance, and government 
accountability could be enforced in the Philippines so land 
grabbing could be resolved.
    Thank you very much.
    [The prepared statement of Mr. Quinto follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Contreras?

     STATEMENT OF MR. ZOSIMO LAUREL CONTRERAS (LITIGANT IN 
                 PHILIPPINES PROPERTY DISPUTE)

    Mr. Contreras. Greetings, U.S. Congressman Ed Royce, U.S. 
Congressman Matt Salmon, and members of the Committee on 
Foreign Affairs.
    My name is Zosimo Laurel Contreras. I am here today to 
represent my family and to express my great disappointment and 
heartache about our land in the city of Tagatay, Philippines. 
The land I am referring to was inherited by my mother, Adelina 
Laurel, from her father, my grandfather, Conrado Laurel.
    To give you a little background on my family, my grand-
uncle, Jose P. Laurel, was the President of the Philippines; 
and his son, who served as Vice President of the Philippines, 
Salvador Laurel, is my second cousin.
    This inherited land is very, very important to us, as it 
would be for any family.
    Early last year in January 2014, I went to the Philippines 
to visit our property with my cousins. I was shocked when I saw 
fences, block walls, and pineapple plantations on our land. 
Despite our 2001 court order for the land grabbers to vacate, 
they continue to occupy the land. While I was taking pictures 
of our property, someone came over to me and harassed and 
intimidated me, asking what I was doing and why am I taking 
pictures. I told them this is our property, and they told me 
the land is theirs. They told me that I own the title, but they 
own the land. They warned me not to go there anymore.
    On June 15 of 2014, I visited our land again and saw a big 
house being constructed on the property, and there was no 
permit. Immediately after, we went to the mayor's office in 
Tagatay City to complain about the land grabbers' activity. The 
mayor's office sent a letter to the settlers to cease and 
desist the construction. We also sent letters to the land 
grabbers to vacate the property by July 30 of 2014, and they 
told us that we have to have a court order to execute the 
removal of the land grabbers on our property. At that time, we 
had our court order which gave us authority to remove them. 
They told us we need to leave and threatened us. We were 
outnumbered and intimidated by them as they told us to go home. 
The police, who were with us at the time, just stood there and 
didn't help. We felt disappointed we didn't have help from our 
local government authorities.
    On another occasion, my cousin and I went to our land to 
have it surveyed and noticed the land grabbers removed the land 
markers. She then hired a surveyor to have the markers replaced 
and was harassed and threatened by the land grabbers, who were 
carrying guns. They told my cousin that she should not continue 
surveying the land.
    I was also advised by my cousins and brothers in the 
Philippines that I should not go there alone because of the 
dangerous situation that might cause harm on me. The land 
grabbers had machetes, guns, and we are outnumbered by them.
    I am here to graciously ask for your assistance to work 
with the Philippine Government and help my family keep our 
precious land which has been inherited through so many 
generations. We need your help. We cannot let the land grabbers 
control us. We cannot continue to feel helpless. Where is the 
justice? Where is the rule of law in our Philippine Government?
    This is a serious situation. We should not be afraid to 
protect and visit our own land. As a responsible landowner, my 
family and I continue to pay all the taxes on the property; 
however, no one is representing us. The police, who were with 
us, acted helpless and scared. Where is the respect for the 
property owners, and who will protect our rights?
    Please, please help us and the rest of the property owners 
who are victims of these land grabbers.
    Thank you very much.
    [The prepared statement of Mr. Contreras follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Rogers?

 STATEMENT OF MR. RICHARD J. ROGERS, PARTNER, GLOBAL DILIGENCE 
    LLP (ATTORNEY REPRESENTING CAMBODIAN VICTIMS BEFORE THE 
                 INTERNATIONAL CRIMINAL COURT)

    Mr. Rogers. Good morning, Chairman Salmon and members of 
the committee. Thank you very much for inviting me here to 
speak about property rights in Cambodia and about the problems 
of land grabbing.
    I would also like to express my appreciation to the 
Cambodian communities who have traveled from far and wide to be 
here at this hearing today to show their support for your 
important work.
    Mr. Chairman, the current Cambodian regime, which has been 
in power for 30 years, appears to have two very basic but 
interrelated objectives, and they are the maintenance of power 
at all costs and the self-enrichment of the ruling elite, 
primarily through land grabbing.
    Unfortunately, to achieve these objectives, the ruling 
elite have committed human rights violations on a massive 
scale, often under the guise of development. And of all the 
human rights concerns that plague Cambodia, land grabbing is by 
far the most prevalent and probably the most destructive.
    According to groups monitoring the land crisis, from the 
year 2000 to the end of 2013, land grabbing had adversely 
affected, in one way or another, over 770,000. New research 
suggests that the situation is actually getting worse, not 
better. In 2014, there were an additional 50,000 people 
affected by land conflicts.
    So the total number is now around 830,000, increasing by 
about 1,000 people per week, which amounts to a staggering 5.5 
percent of the entire Cambodian population.
    Mr. Chairman, a significant proportion of these people have 
already been forcibly evicted, and while we don't have a 
precise nationwide figure for this population displacement, it 
is thought to run into the hundreds of thousands. The evictions 
themselves are often violent, with private security firms, 
police and the army using live ammunition, tear gas and 
bulldozers to drive out villagers who protect their homes with 
sticks and stones.
    Residents have been shot or beaten, entire villages have 
been burned to the ground, and evictees are often sent to live 
in squalid resettlement camps.
    Not surprisingly, the Cambodian Government claims that the 
economic land concessions they award to private businesses 
bring economic benefits to the local communities. But research 
by the U.N. and others suggests that, more often than not, they 
actually have the opposite effect. The way that these 
development projects are implemented leaves ordinary Cambodians 
with a loss of traditional livelihoods, with a lack of clean 
water and sanitation, with food shortages and malnutrition, and 
with crushing unemployment.
    In fact, those who profit are a tiny group of ruling elite 
made up of senior members of the ruling party, senior members 
of state security forces, as well as the government-connected 
business elite.
    Unfortunately, the Cambodian judicial system is part of the 
problem and not the solution. There is a decent legal framework 
to regulate land use in Cambodia, including the economic land 
concessions. The problem is that the laws are simply ignored 
both by the government and by the judiciary when there is money 
to be made. In fact, the ruling elite have relied heavily on 
corrupt and biased judges to implement the land grabs, 
intimidate the poor, and crush their opponents.
    So no one really expects the Cambodian courts to be fair 
with the massive land grabbing and illegal displacements that 
have occurred over the last 15 years.
    Mr. Chairman, it is widely accepted that the forced 
evictions were illegal in the sense that they breached 
Cambodian national laws, as well as international human rights 
conventions. But do they also violate international criminal 
law?
    Well, as the lawyer for a group of Cambodian victims, I was 
asked to advise whether or not the land crimes have become so 
serious that a case could be brought before the International 
Criminal Court in the Hague. While land grabbing is not an 
international crime per se, forcible transfer of populations 
can be. It can be a crime against humanity if it is 
sufficiently widespread and part of a state policy.
    After analyzing thousands of pages of reports and evidence, 
we found that when the mass evictions over the last 15 years 
are considered together, when they are looked at cumulatively, 
the situation meets all the legal elements of crimes against 
humanity.
    So in October 2014, we filed a communication to the 
prosecutor of the ICC asking her to open an investigation, and 
we are now waiting to see if she accepts the case and moves it 
to the next stage.
    Finally, Mr. Chairman, in my written submission I outlined 
three recommendations that I thought could help address the 
problems of land grabbing. First is the adoption of a rule of 
law accountability act for Cambodia, or even better perhaps is 
the adoption of the global Magnitsky Act and its application to 
Cambodia. I understand that there is a bill already being 
considered in the House and the Senate.
    Secondly is increased funding and support for Cambodian 
NGOs who monitor the land grabbing.
    And thirdly is the prohibition of U.S. funding or military 
training for Cambodian military units that take part in illegal 
forced evictions.
    Mr. Chairman, there are few populations around the world 
who have suffered more mass atrocities and are more deserving 
of justice than the Cambodian people. At the very least, they 
deserve a stable home. Thank you very much.
    [The prepared statement of Mr. Rogers follows:]
    
   
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    We now go to questions.
    Mr. Rogers, I would just ask one question. I know some of 
the members up here have other obligations, so we will try to 
move it along as quickly as we possibly can.
    Mr. Rogers, you are pressing a case, then, with the Hague. 
What is your expectation, and what do you think the timing is 
of them responding back to you as to whether or not they are 
going to take jurisdiction? And if they decline, do you have 
other venues that you can pursue legally?
    Mr. Rogers. Well, I think we stand a very good chance. One 
has to remember that the ICC has limited resources and many 
difficult issues to deal with, so it simply can't open every 
case. But I think that this is a particularly strong case. The 
numbers are incredibly high. We are probably talking about 
300,000 or 400,000 people affected by a law that is explicitly 
listed in the ICC statute, and that is forcible transfer of 
population.
    So there is a very compelling argument that they should 
move forward with this case. I also think that the evidence is 
very strong, primarily because the NGOs in Cambodia on the 
ground have been very courageous for many years and have been 
doing an excellent job obtaining very credible evidence.
    So I think there is a good chance that they will move 
forward, at least to the next stage, which is called a 
preliminary examination. But if they do move to that stage, 
then the Cambodian ruling elite will realize that they are 
being watched, and if something doesn't change, then the next 
move will be issuing indictments and possibly arrest warrants. 
So even getting to that next stage will make a huge difference 
to the human rights situation in Cambodia.
    Mr. Salmon. Would it be possible, if it does go to that 
first phase, and if--I mean, I know these are a lot of ``ifs'' 
and hypotheticals, but is it possible that the Cambodian 
Government could contact you and offer some kind of a 
settlement to fix the issues with these people?
    Mr. Rogers. It is not the way that this procedural system 
works. It is not a case like a domestic case, where you can 
withdraw.
    Mr. Salmon. No, I understand that. Oh, okay, so you 
couldn't withdraw.
    Mr. Rogers. I cannot withdraw.
    Mr. Salmon. Okay. Once you pursue a criminal action, it is 
on cruise control, basically, then?
    Mr. Rogers. Absolutely. It is there before the prosecution, 
and it is information for them to act on. So I can't say you no 
longer have the right to this information.
    Mr. Salmon. Okay. Thank you.
    Mr. Chairman?
    Mr. Royce. I will defer to Mr. Sherman.
    Mr. Salmon. Mr. Sherman?
    Mr. Sherman. Ms. Bautista, the problems for land grabbing 
in the Philippines, are they widespread throughout the country 
or focused only in some of the provinces?
    Ms. Bautista. Throughout the country, sir.
    Mr. Sherman. Okay.
    Mr. Quinto, is there such a thing as title insurance in the 
Philippines, or basically the system is so chaotic that title 
insurance companies aren't willing to ensure even a small 
portion of the title?
    Mr. Quinto. Thank you for that question, Ranking Member. I 
have spoken to the former president of the First American Title 
Company. They were hired by the World Bank to fix the titling 
system in the Philippines. After a month they came back, and I 
asked them why, don't you want to be paid? They said, Joey, it 
is hopeless. Once they come in there, Ranking Member, if 
someone claims, they have to pay for the losses. They said the 
first thing they have to do is stop the corruption.
    There are instances wherein one property, the same 
property, has 10 owners, and they found out this cannot be done 
by the other 9. They would not go into a public office and put 
it into the computer. Someone inside the office would do it. 
That is corruption.
    So when they came back here, they told me, Joey, it is 
hopeless. The first thing is they have to stop the corruption.
    Mr. Sherman. Is corruption widespread throughout the 
judicial and legal system, or is it particularly--what we are 
seeing here is real estate title, but are you talking about a 
corrupt judiciary? Is it as corrupt in non-real estate cases, 
or is real estate a special province of corruption?
    Mr. Quinto. It is hard to speak for other instances, 
Ranking Member, but in terms of real estate losses, just like 
Mr. Cabrillos, he gave us a certified and under-oath letter 
that he was encouraged by the Philippine Government to sue, and 
he sued the land grabbers. The only thing, it has been 15 years 
now and the paper is not moving at all. So the land grabbers, 
they control the judicial system.
    Mr. Sherman. Now, the land grabbers, when they get the 
land, do they then collect rent from tenant farmers who were 
previously living there? Do they displace those who are living 
and working the land and bring in other people? Who is 
physically using the land in these cases? And I realize my 
question focused more on rural land than urban, but what do the 
land grabbers physically do with the people who had been using 
the land?
    Mr. Quinto. With the example of Mr. Cabrillos, Ranking 
Member, they are still paying the taxes because they know if 
they default it will go to tax sale, so they are wise.
    In my case, we still continue to pay the property taxes.
    Mr. Sherman. But who is living on the land? What is the 
land being used for?
    Mr. Quinto. You know, they are waiting for us to give up on 
paying the property taxes so that they could buy from the city 
hall.
    Mr. Sherman. What is on the land? Is somebody farming this 
land? Are there buildings on the land? How is the land being 
used at the present time?
    Mr. Quinto. I will talk about my specific case, Ranking 
Member. It is beside a golf course, and it is not my fault if 
that golf course was designed by Arnold Palmer. They know how 
precious is that land. Right now, the value is zero because we 
cannot use it.
    Mr. Sherman. So this is urban land that is left unused, it 
would have great development potential.
    Perhaps I can ask Mr. Contreras, the land that you are 
aware of, is it urban or rural? Is it used, or is it completely 
unused because of the property dispute?
    Mr. Contreras. It is rural or urban. It is a city. It is 
Tagatay City. It is a resort city.
    On our land, to answer your question about what they are 
doing to the land, they do plant pineapples, trees, bananas, 
and they stay there. And when you ask them to leave, they 
threaten you. In fact, we sent a court order to move out. Even 
the Tagatay City, the mayor helped us to send that letter. We 
distributed that to them, and they just ignored it. And 
whenever we come there again, people are looking at us, what 
kind of cars we are driving. They look at us. They know who we 
are. So after that, they all gathered around and circled us and 
threatened us. That is not the kind of life we are looking for 
in the Philippines.
    Mr. Sherman. Democracy in the Philippines doesn't mean 
anything unless people can vote for a government that is 
willing to control what happens on the ground.
    Mr. Contreras. That is true.
    Mr. Sherman. If you vote for a government that meets in a 
building and discusses laws that will be ignored, you might as 
well vote in a beauty contest. The winning side, you call in 
the phone number and this one or that one will wear the crown, 
but whoever wears the beauty crown doesn't have any influence 
on people's lives.
    If I had more time I would talk to you about why the 
government allows this to happen, but I think we have other 
questioners.
    Mr. Salmon. Thank you.
    Mr. Royce?
    Mr. Royce. Thank you, Chairman Salmon.
    To pick up on the comment that Mr. Sherman is making, this 
is somewhat like the situation that you might hear about in the 
United States in some small town where, regardless of what the 
Federal Government does, you have well-connected developers who 
decide that they want a certain piece of property and then 
manage to manipulate the local political system in order to 
gain that and to push people out of their property.
    So what you have in the Philippines right now is a 
circumstance where President Aquino has this as part of his 
reform program, and you have USAID on the ground trying to push 
this reform program, but we have a legacy problem here, as 
explained to me at least by some of the experts who have looked 
at this. This legacy problem goes back to Marcos and the 
decision that Marcos made, back when he introduced corruption 
at such a massive level.
    What he did, what he decided to do, was to reward well-
connected generals and commodores and those who were connected 
to him politically by going in and destroying part of the 
titling process so that he could transfer to his allies or put 
in motion a system where he could reward his political allies 
and family members and so forth.
    The consequences of that is to reverse that now when it 
occurs at the local level you are going against something that 
has become, in some areas, apparently, habitual, where those 
who are well-connected in local government are used to being 
approached by developers, right?
    How much is this costing the Philippines? De Soto spent a 
lot of time researching this problem on the ground. He put that 
cost at $130 billion worth of human capital, as he calls it 
``dead capital.'' This is the anchor on real development in the 
Philippines because of the inability to get over this problem, 
the corruption at this local level, which then prevents people 
from taking the decisions they would otherwise make because of 
the anarchy that has been created there.
    So the question I was going to ask Mr. Quinto, on my trips 
to the Philippines to address other issues and this issue of 
land grabbing, one of the things I have found is that it is the 
local governments that are not enforcing the law. What more 
could be done in order to try to make certain that the local 
government enforces the law and cleans up the registry in terms 
of land title?
    Mr. Quinto. Chairman Royce, to answer the question about 
how the local government could implement or enforce a law, the 
DLIG, the Department of Interior of the local government, is a 
national agency that has direct jurisdiction to the local 
government, to the mayor, to all the local employees over 
there. But the problem is the DILG is not enforcing their 
jurisdiction, their mandate. It is mandated by law for them to 
exercise their jurisdiction.
    So I think it is also the local government and the national 
government or the Federal Government. When it comes to 
President Aquino, he wants to be successful in the anti-
corruption initiative, but the problem is there are so many 
people in the Philippines who do not want him to be successful.
    Since the United States is giving $\1/2\ billion to the 
Philippines as foreign aid, that is an investment that is 
coming from the American taxpayers. I remember when the 
Millennium Challenge Corporation CEO answered your question 
about putting conditions on foreign funding. She said if the 
property rights would be an issue, she would look at it. I 
think it is about time for the United States to put conditions 
on the funding of the Philippines until they reform. This was 
done during the Aroya administration as well, wherein they put 
conditions until they reformed, so there is historical data to 
that.
    Mr. Royce. Thank you.
    I had one last question, and that goes to Mr. Rogers, and 
this goes to your issue of forcible transfer of populations. 
When we look at the fact that so much of the violence that is 
perpetrated leaves in its wake young Cambodians that are often 
susceptible to trafficking, I think you made the observation 
that we are talking about more than one crime here. By moving 
800,000 people out of having any means of support, you have 
left them in a position of extreme vulnerability in a part of 
the world where trafficking is not only a practice, but my 
chief of staff, Amy Porter, has been twice over to Phnom Penh 
on this trafficking issue of underage girls, and it turns out 
the mayor of the city was apparently involved because the 
police chief--I don't know about the mayor. I know the police 
chief was directly involved because he owned the brothel, okay?
    So you have, again, someone in Hun Sen, a Hun Sen police 
chief. When you have that level of corruption--and I will just 
give you this example. Four thousand residents surrounding 
Boeung Kak Lake, as you know, were evicted from their homes to 
make room for a company owned and controlled by a senator of 
the Hun Sen party. Residents who protested their homes being 
seized and destroyed were beaten with electric batons, 
according to the press. Several mothers and grandmothers were 
arrested and tried during a 3-hour trial. So that is the court 
system going to work against the local population.
    So, what is the status of the individuals that were 
affected by this seizure of property? I was going to ask you 
how typical this incident is and tie it into the fact that so 
many of these younger people can end up in trafficking.
    Mr. Rogers. Thank you for the question. You are absolutely 
right that the nightmare doesn't end at the point of eviction. 
People, when they lose their land, they fall deeper into 
poverty, and this is particularly the case with these rural 
agrarian societies. Land is everything. It is their means of 
creating wealth. It is what they pass down to their children. 
When it is taken away from them, not only does the unemployment 
rate skyrocket, it is double the national average, but the 
increased poverty makes them vulnerable to other human rights 
violations such as trafficking. That undoubtedly happens 
because trafficking is, of course, a byproduct of poverty.
    I am glad you mentioned the Boeung Kak Lake case because in 
that case a CPP senator was awarded the land illegally--because 
it was public land, it wasn't private land--and, indeed, about 
4,500 people were evicted from their homes violently. There was 
a group of women, mothers and grandmothers, who protested. They 
were called the Boeung Kak Lake 13. One or two of them, who are 
here today, have actually spent time in prison. That is one of 
the most famous cases, but it is actually quite typical. I 
think it is only so famous because it happened right in the 
center of Phnom Penh. Unfortunately, around the rural areas 
that are much harder to access for expats and for journalists, 
this type of thing is happening all the time, as well as the 
consequential human rights violations and probably trafficking.
    Mr. Royce. Thank you, Mr. Rogers.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you.
    Dr. Chu?
    Ms. Chu. Mr. Quinto and Mr. Contreras, thank you for your 
powerful testimony and telling us about your personal 
experience, the experience of your family with regard to this 
land grabbing. I find your stories to be utterly outrageous.
    I was wondering if you could talk more about how you feel 
about your personal safety, your physical safety in trying to 
assert your rights in trying to stop this land grabbing, and in 
trying to get your land back as you try to fight the system. Do 
you fear for your personal safety, and do you think other 
families in the Philippines feel this way as well?
    Mr. Quinto. Thank you for that question, Dr. Chu, 
Congresswoman Chu. A lot of families in the Philippines do not 
want to be telling their stories because they fear the land 
grabbers. They have powerful guns. For the Philippine 
Americans, it is about time for the Philippine Americans also 
to know they are Americans, and no one, no American should be 
hurt anywhere in the world because America would look for that 
person, because Philippine Americans, Cambodian Americans, we 
are all Americans. So they could hurt us, but America would 
find them.
    When it comes to our personal safety, me myself, I am 
fearful. I am dealing with this general. If the Philippine 
Government is scared of him, how much more me? I would not say 
I am brave. I am scared of him, because imagine the powerful 
Philippine Government is not moving at all. They are scared of 
him.
    So, yes, we are fearful to face the land grabbers. But it 
is also the job of the Philippine Government--in fact, the 
Consul General of the Philippines also told the Philippine 
Government, he asked them in an interagency meeting, he asked 
them who is the government? Is he the government, or are we the 
government? Why could we not implement and enforce the laws? 
And no one answered the question.
    Ms. Chu. Mr. Contreras?
    Mr. Contreras. For my safety, when I visited the 
Philippines, especially when we visited our lands out there, 
because when we go there, they know what car we are driving, 
and when they find out we are there, a lot of people that live 
in that neighborhood come around you and threaten you. I would 
say that I am fearful myself. It is not an easy thing to go 
there anymore.
    I was there three times last year, and I had a horrible 
experience going there. Sometimes I said I might as well give 
it up, give it up, but I can't because I inherited that land 
and I have the right to own it. That is how I feel about that. 
I don't know if I will go back there again, but I will. I 
promise, I will go there.
    Ms. Chu. Mr. Quinto, I wanted to follow up on what you said 
about the Millennium Challenge Corporation which provides 
foreign assistance. It seems like there is an opportunity right 
now. This MCC currently has a compact with the Philippines that 
is set to expire in May 2016 and is in the early stages of 
negotiating a second compact.
    What could we in Congress do to improve the situation with 
regard to land grabbing? I know that the MCC is not part of 
this hearing, but what, in your opinion, could we do to help 
the situation?
    Mr. Quinto. When Chairman Royce asked that question to Ms. 
Hyde, the CEO of the Millennium Challenge in the budget hearing 
on the conditions, the CEO of the Millennium Challenge, Ms. 
Hyde, said that if the land tenure is a problem, she will look 
into it, because all of the money that is coming from 
Millennium Challenge, the $\1/2\ billion, has guidelines, which 
is government accountability, rule of law, respect for property 
rights. And if they are not following those guidelines, the 
Philippines is in violation of the compact, the agreement.
    While we want the Philippines to be progressive, we also 
want everyone to have economic opportunity, not only for the 
few but for everyone. The land grabbing victims are not having 
any economic opportunities.
    So, to answer the question, in fact, Congressman Ted Lew 
sent a letter to Ms. Hyde, and she responded to communicate 
also this thing to the State Department. So they are waiting 
for the State Department also to make an action.
    Opportunity is here now. If you put conditions to the 
upcoming compact, I think the Philippines would reform in a few 
hours. They would say, ``We'll do it.'' They would not wait for 
1 year because there is a condition. America doesn't want 
American taxpayers that goes to waste, because if the 
Philippine Government would not follow the guidelines of the 
foreign funding, that is called wasteful spending.
    So I think conditions should be put on the next compact 
that is coming to the Philippines.
    Ms. Chu. So it sounds like other Congress members could 
also write letters to MCC saying that there should be such 
conditions.
    Mr. Quinto. Yes, because I think MCC CEO is also waiting 
for an answer from the State Department. The land grabbing 
victims--what I have been telling the Philippine Government, 
Congresswoman, is if these people would be able to get into 
their land, it would create employment. The biggest problem in 
the Philippines now is employment. I said who would be the 
carpenter? Who would be the plumber? Who would be the 
electrician? Do you think the owners? They would hire 
contractors. And these farms, do you think they would be the 
ones taking care of all this livestock? They would hire people, 
and they would have more income. They have problems with tax 
collection, low tax collection. They would have more tax 
collection. They would have more employment being built.
    So this is the same thing as what Hernando de Soto reported 
to Congressman Royce, creating a bigger economy.
    Ms. Chu. Thank you.
    I yield back.
    Mr. Salmon. Thank you.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Well, thank you very much. This has been 
very fascinating for me to listen to your tales of woe, and 
they are tales of woe, and I sympathize, and I know all 
Americans sympathize with the little guy who is being oppressed 
by the big guy. That is what we are hearing about.
    We do have that problem in our own country, however, and 
let us note that we have a major problem with eminent domain 
abuse in our country. So while we are looking at the problems 
overseas, I hope we all take to heart that we won't permit this 
to happen here.
    It is interesting that I have a friend who came here from a 
country, from Ethiopia, when his family left when the 
communists took over, and the communists took over his father's 
business, and he came here and now spends his entire time in a 
law firm that defends American property owners against abusive 
use of eminent domain to steal their property right here in our 
country.
    So we have to take that into consideration, that we are not 
perfect here, but we have a perfect ideal. We have the ideal of 
what America is supposed to be and what our Founding Fathers 
meant it to be, and that motivates us not only to hear but to 
side with people in other countries who share that vision, that 
ideal of humankind.
    Mr. Royce was absolutely correct about rule of law 
basically when it comes to title. If you do not have a title, 
as Mr. Royce pointed out, there is no collateral. If there is 
no title, there are no loans. If there are no loans, there are 
now businesses being created. And if there are no businesses 
being created, there are no jobs being created. So this is a 
very vicious cycle that starts with, number one, a respect for 
the rule of law, and then, because you have to have a judge 
that is giving you a proper assessment, a legal assessment and 
decision about the title itself.
    So what we are talking about here is unless we correct the 
basic problems that we are talking about today, there will be 
no prosperity. In the Philippines, where they have a large 
degree of freedom when it comes to freedom of speech and 
freedom of religion and freedom of the press, or Cambodia where 
they don't have a large degree, or Vietnam where they have none 
of them, we know that these countries will not prosper and 
people will not live well unless that type of basic reform 
happens.
    I would like to go into one last area of questioning, and I 
am just sort of probing here. Who ended up with the land there, 
what you were talking about, Mr. Rogers, in Boeung Kak Lake? 
Who ended up with that land?
    Mr. Rogers. It is a senator who is a senator in the ruling 
party, the CPP, that has a company called Pheapimix, who owns 
huge tracts of land throughout Cambodia and is being given 
many, many concessions.
    Mr. Rohrabacher. Did they sell any of that land, or the 
lake, did they sell any of it to the Chinese?
    Mr. Rogers. Not that I know of. I think it is still in the 
process of being developed. They are filling in the lake with 
sand, which is causing terrible floods in Phnom Penh, and they 
are going to develop it themselves as far as I know.
    Mr. Rohrabacher. It has been my understanding that China is 
pumping large amounts of money into the Philippines and into 
Southeast Asia, and I am just wondering whether or not that 
money, for example that senator that you are talking about, 
whether or not he plans to sell that to somebody who may have 
already contracted with him to get that property. Our friends 
from the Philippines, are there any negative situations being 
caused by Chinese investment that you know of? No? Okay. I am 
just probing, trying to find out where we can document that, 
because I have been told by several people that that is 
becoming a problem, that this Chinese investment comes with the 
corruption of local officials, who then do the bidding of a 
very powerful foreign investor rather than watching out for the 
interests of their own people.
    Well, thank you very much, Mr. Chairman, both Mr. Chairman. 
I have enjoyed it. This has been very illuminating, and I hope 
that again we don't forget any American citizen who is 
incarcerated anywhere in the world where they are trying to 
promote the values that we believe in. We know there is one 
case in Cambodia that we are not going to forget, and we hope 
that justice is done to our friends in the Philippines as well.
    Thank you very much.
    Mr. Salmon. Thank you.
    I thank the members of the committee. Some traveled greater 
distances, some not so much.
    We appreciate the staff who have come here today.
    We appreciate the great witnesses that we have had.
    And I can't tell you how much I appreciate what a polite 
and wonderful group of attendees have been here today. I am 
sure many are from Cambodia and many from the Philippines. We 
are just thrilled to have you here today and really appreciate 
your courtesy.
    Rest assured, this is a serious issue. The chairman of the 
full committee has a penchant for staying with something until 
it gets resolved. He is very well known for that in Congress, 
and we are thrilled to be here with him today.
    With that having been said, we are going to adjourn the 
committee. Thank you.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
